U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                PUBLIC
               RELEASE


      NATIONAL OCEANIC AND
ATMOSPHERIC ADMINISTRATION

                     NWS Y2K Risks Are Low
                 and Agency Is Well Prepared

        Inspection Report No. OSE-12313 / December 1999




                             Office of Systems Evaluation
December 6, 1999



MEMORANDUM FOR:                    John J. Kelly, Jr.
                                   Assistant Administrator for Weather Services


FROM:                              Johnnie E. Frazier

SUBJECT:                           Final Inspection Report, NWS Y2K Risks Are Low and Agency Is
                                   Well Prepared (Report No. OSE-12313)


The Office of Inspector General has completed a review of the National Weather Service’s efforts
to reduce the risk of business interruption due to the year 2000 (Y2K) century change. We
believe that the likelihood of interruption of NWS operations due to Y2K failure is low, with the
exception of the possible loss of international weather data from countries that are at risk for Y2K
failures. However, NWS has developed contingencies to compensate for the loss of this data.
We did not review the Y2K compliance of NWS’s eight national mission critical systems because
they were being evaluated by the Department’s Y2K validation contractor.1

Because we did not find any significant weaknesses in the aspects of the NWS Y2K program that
we reviewed, we have not made any recommendations and are issuing this report in final. We
would like to thank the dedicated and knowledgeable staff of NWS for working with us to
complete this review.

BACKGROUND

NWS provides weather, hydrologic, and climate forecasts and warnings for the United States, its
territories, adjacent waters, and ocean areas for the protection of life and property and the
enhancement of the national economy. NWS data and products form a national information
database and infrastructure that can be used by other governmental agencies, the private sector,
the public, and the global community. NWS provides warnings and forecasts of hazardous
weather, including thunderstorms, flooding, hurricanes, tornadoes, winter weather, tsunamis, and


        1
          The following eight national systems were identified by the NWS as most critical to its operations: (1)
Automated Surface Observing System (ASOS), (2) Next Generation Weather Radar (NEXRAD), (3) Advanced
Weather Interactive Processing System (AWIPS), (4) NWS Telecommunication Gateway (NWSTG), (5) National
Centers for Environmental Prediction (NCEP), (6) NWS Upper-Air program, (7) NWS River Forecast System
(NWSRFS), and (8) Automation of Field Operations and Services (AFOS).
U.S. Department of Commerce                                                     Inspection Report OSE-12313
Office of Inspector General                                                                   December 1999

climate events. The NWS is the United States’ sole official voice for issuing warnings during life-
threatening weather situations.2

The Office of Management and Budget has identified NWS as a Y2K high impact federal agency
because of the importance of its services to the public. The Y2K problem results from computer
systems that have been programmed with only the last two digits of a year rather than all four.
This approach can cause computer systems to fail because many will not be able to distinguish
between the years 1900 and 2000. Although years are infrequently used in weather data, NWS
needs to identify and correct all Y2K defects to make sure it can provide forecasts and warnings
without interruption.

PURPOSE AND SCOPE

The purpose of this review is to reduce the risk of critical system failure and business interruption
due to the year 2000 century change by assessing actions taken by NWS and, if appropriate,
recommending practical Y2K risk mitigation activities. We reviewed five aspects of the NWS
Y2K program: (1) business continuity and contingency planning, (2) NWS end-to-end tests, (3)
external data exchanges, (4) policies for maintaining Y2K compliance, and (5) the compliance of
systems used to notify the public of weather conditions. We did not review the Y2K compliance
of NWS’s eight national mission critical systems because they were being evaluated by the
Department’s Y2K validation contractor.

Our methodology included evaluating documentation and interviewing NWS staff involved in the
Y2K effort. Our criteria were derived from GAO and OMB guidelines for the Y2K computing
crisis, research institutions, and best practices. Our work was performed in accordance with the
Inspector General Act of 1978, as amended, and the Quality Standards for Inspections, March
1993, issued by the President’s Council on Integrity and Efficiency. We conducted our fieldwork
between August and November 1999.

OBSERVATIONS AND CONCLUSIONS

NWS Y2K Risks Are Low and Agency Is Well Prepared

We found three factors that significantly reduce the likelihood of Y2K-induced interruption of
NWS operations. First, NWS systems have a low susceptibility toY2K failures because weather
systems use year data infrequently. NWS estimates that five percent or less of its data contains
year information. Second, NWS has experience using its well-documented, in-depth contingency
plans for maintaining continuous operations. For example, in September 1999, NWS was able to
recover from a catastrophic loss of its supercomputer, which is fundamental to weather

        2
         National Weather Service Strategic Plan for Weather, Water, and Climate Services, 2000 - 2005,
August 1999.
U.S. Department of Commerce                                                      Inspection Report OSE-12313
Office of Inspector General                                                                    December 1999

forecasting. Third, NWS has adequately tested its ability to receive and send weather data
internally and with data exchange partners, which is crucial to generating and distributing
forecasts. This ability was demonstrated in two Y2K end-to-end tests, which included
participation by governmental, private, and international concerns.

In the remaining areas of our review we also found that NWS was Y2K-ready. Its external data
exchanges, like other weather data, use year data infrequently. NWS tested external data
exchanges in the Y2K end-to-end tests and reported problems were corrected. We found that
although NWS does not have an official policy for freezing or regulating changes to compliant
systems, it does not plan to upgrade its eight national mission critical systems before the end of
the year. Upgrades that have occurred have gone through a process that ensures that systems
were re-tested for Y2K compliance. Finally, four systems NWS uses to notify the public of
severe weather conditions have been confirmed to be compliant.3

We believe that NWS’s greatest Y2K risk is the possible loss of international weather data from
countries that are at risk for Y2K failures. However, NWS has developed contingencies,
including alternate data transmission paths and data sources, to compensate for the loss of this
data. In the worst case, NWS meteorologists would rely on data from local, ground-based
observations and satellite data products to produce forecasts and severe weather warnings.




        3
          The following four systems are used to notify the public of weather conditions: (1) NOAA Weather Wire
Service (NWWS) satellite uplink system, (2) NOAA Weather Radio (NWR) broadcast system and its associated
digital Console Replacement System (CRS), (3) NEXRAD Information Distribution Service (NIDS) which is part
of the NEXRAD system, and (4) Emergency Managers Weather Information Network (EMWIN).
